No.

In the Supreme Court of the United States

Nathaniel B. Appleby-El,
Petitioner
v.
State of Maryland,
Respondent

On Petition for Writ of Certiorari to the Court of Appeals of Maryland

Certificate of Service
I, William L. Welch, III, counsel for petitioner, and a member of the Bar of
this Court, certify that on this 28th day of July 2021 the required number of copies
of the Motion to Proceed in Forma Pauperis and Petition for Certiorari were mailed
to: Carrie J. Williams, Office of the Attorney General, Criminal Appeals Division,
200 Saint Paul Place, 17th Floor, Baltimore, Maryland 21202.

/s/ William

L. Welch, III

William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
Counsel for Petitioner Nathaniel B.
Appleby-El
(Appointed by the Maryland Office of the
Public Defender)

